USAID
OFFICE OF INSPECTOR
GENERAL
                             Audit of
                    USAID/Senegal’s
             Recipient Audit Universe


           Audit Report No. 7-685-01-002-P

                              April 27, 2001
                               Dakar, Senegal




                                 U.S. Agency for
                      International Development
1
Table of                                                                        Page
Contents
           Summary of Results                                                      3

           Background                                                              3

           Audit Objective

                  Was the audit universe for USAID/Senegal accurate and
                  were required audits conducted in a timely manner?               4

           Audit Findings                                                          4

           Management Comments and Our Evaluation                                  6

           Appendices

                  Scope and Methodology                                   Appendix I

                  Management Comments                                     Appendix II




                                                                                    2
Summary of   Financial audits of contracts, grants, and cooperative agreements are a primary basis
Results      for effective management and control of USAID’s program expenditures. We
             conducted the audit as part of a worldwide Office of Inspector General audit to
             confirm that this important management and control system was in place and
             functioning as intended.

             We designed the audit to determine whether USAID/Senegal had accurately defined
             its audit universe and ensured that required audits were conducted in a timely
             manner. The audit showed that USAID/Senegal had developed an accurate audit
             universe. For the period audited, no recipient audits were required because none of
             the Mission’s non-U.S. awards met the audit threshold.

             Mission management agreed with the findings in this report.



Background   Financial audits of contracts, grants, and cooperative agreements are a primary basis
             for effective management and control of USAID’s program expenditures. These
             audits are designed to provide USAID management reasonable assurance that
             transactions are properly recorded and accounted for; laws and regulations, and
             provisions of contract or grant agreements are complied with; and USAID-
             financed funds, property and other assets are safeguarded against unauthorized
             use or disposition.

             In response to congressional concerns, USAID has taken an active role in recent
             years, using audits as a management tool to improve financial accountability of its
             programs. During 1991 and 1992, USAID revised its standard provisions for its
             contracts and grants, requiring annual audits of non-U.S. organizations disbursing
             USAID funds of $25,000 or more. The threshold was increased to $100,000 in
             May 1994, and to $300,000 in July 1998.

             In addition, USAID issued a general notice in April 1992 defining the role of
             USAID missions in obtaining audits of their contracts, grants and cooperative
             agreements with non-U.S. organizations. In May 1996, these requirements were
             incorporated into Chapter 591 of USAID’s Automated Directives System (ADS),
             which requires USAID missions to (1) establish an audit management program;
             (2) maintain an audit inventory database; and (3) have audits done for non-U.S.
             grants, contracts and cooperative agreements that meet the audit threshold.

             These initiatives have important consequences in preventing misuse of USAID
             development funds and in facilitating timely corrective actions by the USAID.
             Lack of adequate audit coverage constitutes an unacceptable risk because, without
             such a control mechanism, financial accountability of program expenditures
             cannot be reasonably assured.



                                                                                                 3
                  In March 1995, the Office of Inspector General (OIG) issued Audit Report No.
                  03-95-009 on USAID’s implementation of USAID’s 1992 initiative to improve
                  the financial management of its programs. The report concluded that most
                  missions had implemented the general requirements of the financial audit
                  management program and established audit inventory databases. However,
                  complete coverage was impaired as a result of obstacles arising from host
                  government restrictions and local audit firm capabilities. Additionally, Audit
                  Report No. 9-000-98-002-F, was issued in March 1998 on USAID missions’ roles
                  in obtaining audits of their contracts, grants, and cooperative agreements. The
                  report concluded that, although the majority of USAID missions reviewed
                  generally obtained audits of their contracts, grants, and cooperative agreements as
                  required by the ADS, a significant number of required audits were not completed
                  at several missions.

                  In May 1999, OIG management decided to verify the accuracy of USAID
                  missions’ recipient audit universe worldwide over a period of three years because
                  the lack of audit coverage was perceived as a high-risk area. Accordingly, this
                  audit was included in RIG/Dakar’s fiscal year 2001 audit plan.


Audit Objective   As part of our fiscal year 2001 annual audit program, we performed this audit to
                  answer the following audit objective:

                  Was the audit universe for USAID/Senegal accurate and were required audits
                  conducted in a timely manner?

                  Appendix I contains a complete discussion of the scope and methodology for the
                  audit.



Audit Findings    Was the audit universe for USAID/Senegal accurate and were required audits
                  conducted in a timely manner?

                  The audit disclosed that USAID/Senegal developed an accurate audit universe.
                  For the period audited, no recipient audits were required because none of the
                  Mission’s non-U.S. awards met the audit threshold.


                  As of September 30, 1999, USAID/Senegal reported expenditures of $24.3
                  million in program funds for contracts, grants, and cooperative agreements. Of
                  that amount, USAID/Senegal awarded a total of $.5 million to four non-U.S.
                  recipients. However, no expenditures were reported by the non-U.S.
                  organizations in amounts (over $300,000) that would be subject to audit. The
                  following table provides a breakdown of the reported expenditures by type of
                  document.


                                                                                                     4
                                USAID/Senegal

               Fiscal Year 1999 Reported Program Expenditures*

                           And Number of Documents


     Type of            Non-U.S. Recipients         Total U.S. and Non-U.S.
   Agreement                                               Recipients
 Contracts                      $544,796 4                $15,299,828 21
 Grants                                0 0                      86,959 4
 Cooperative                           0 0                   8,949,813 7
 Agreements
 Total                          $544,796 4                 $24,336,600 32

* Program expenditures do not include local currency trust funds managed by USAID/Senegal



To comply with the requirements of ADS Chapter 591, USAID/Senegal took the
following actions to implement an audit management system:

� issued two mission orders to provide mission-specific guidance for the audit
management program;

� established a management control review committee to monitor the status of
the Mission’s audit program and to assure that its audit responsibilities were
carried out;

� designated an audit management official to coordinate and monitor the
Mission’s financial audit program and follow up on implementation of recipient-
contracted audit recommendations;

� maintained an accurate annual audit inventory/plan of contracts, grants, and
cooperative agreements; and

� performed some financial management reviews on non-U.S. recipients that
expended amounts below the threshold for audits.

In addition, as part of its reporting requirements under the Federal Managers’
Financial Integrity Act of 1982, USAID/Senegal directed an evaluation of its
system of management controls in effect during the fiscal year ended September
30, 1999, that included a review of its audit management system.




                                                                                            5
Management       USAID/Senegal’s management concurred with the findings in the draft report and
Comments and     commended the OIG for ensuring that audits are undertaken where and when
Our Evaluation   necessary.




                                                                                             6
                                                                                    Appendix I

                                                                                    Page 1 of 2


Scope and     Scope
Methodology
              The audit was conducted in accordance with generally accepted government
              auditing standards and assessed whether: (1) USAID/Senegal’s audit universe was
              accurate, and (2) required audits were done in a timely manner.

              Fieldwork was performed at USAID/Senegal in Dakar, Senegal from January 23 to
              February 16, 2001 and covered $24.3 million in reported USAID expenditures
              during fiscal year ended September 30, 1999. USAID/Senegal provided RIG/Dakar
              with an adequate representation letter. The audit scope included:

              �   reviewing the Mission’s audit management program and related documents,

              �   interviewing cognizant Mission officials, and

              � comparing the Mission’s audit inventory and audit plan to data contained in the
              Mission Accounting and Control System. (MACS).

              In comparing the audit inventory to the data in the MACS, we determined (1) total
              expenditures reported for all grants, contracts and cooperative agreements (U.S. and
              non-U.S.) for the fiscal year ended September 30, 1999, and (2) total expenditures
              reported for non-U.S. organizations in excess of $300,000.

              The audit criteria were principally the Chapter 591 of USAID’s Automated
              Directives System (ADS) and the OIG’s “Guidelines for Financial Audits
              Contracted by Foreign Recipients” (Guidelines) dated July 1998.

              Methodology

              To assess management controls, the methodology included (1) reviewing the
              Mission’s audit inventory database to determine if it contained the information
              needed to identify and track required audits, (2) examining appropriate
              documentation, and (3) conducting interviews with cognizant officials to determine
              whether the Mission had met its responsibilities established by ADS Chapter 591
              and the Guidelines.

              To answer our audit objective, we identified the universe of USAID/Senegal’s
              contracts, grants and cooperative agreements. We then determined the number and
              dollar amounts of all agreements with non-U.S. organizations subject to audit
              coverage at September 30, 1999 using the Mission’s contract files and the MACS.
              For the period under review we identified four non-U.S. recipients. However, they
              did not report expenditures in amounts subject to audit. We also reviewed the
              contract files for those recipients.
                                                                     Appendix I
                                                                     Page 2 of 2


We did not assess the reliability of data contained in the MACS. Additionally, we
did not apply a materiality threshold since no audits were required.
             Appendix II




Management
Comments
